                        U.S. Department of Agriculture

                           Office of Inspector General
                                       Western Region




              Audit Report
 ANIMAL AND PLANT HEALTH INSPECTION SERVICE
EXOTIC NEWCASTLE DISEASE ERADICATION PROJECT
   COOPERATIVE/REIMBURSABLE AGREEMENTS




                              Report No. 33099-10-SF
                                       January 2005
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




DATE:         January 20, 2005

REPLY TO
ATTN OF:      33099-10-SF

SUBJECT:      Exotic Newcastle Disease Eradication Project –
              Cooperative/Reimbursable Agreements

TO:           W. Ron DeHaven
              Administrator
              Animal and Plant Health Inspection Service

ATTN:         William Hudnall
              Deputy Administrator
              Marketing and Regulatory Programs Business Services

This report presents the results of our audit of the Animal and Plant Health Inspection Service’s
cooperative/reimbursable agreement with the California Department of Food and Agriculture for
the Exotic Newcastle Disease eradication project. The report incorporates an issue previously
reported to you in a January 20, 2004, management alert. Your January 27, 2004, response to the
management alert and December 27, 2004, response to the draft audit report are included as
exhibits C and D, respectively, to the report. Excerpts from your responses and the Office of
Inspector General’s positions have been incorporated into the relevant sections of the report.

We agree with your management decision on Recommendation No. 1. The actions needed to
reach management decision on Recommendations No. 2 and 3 are detailed in the Findings and
Recommendations section of the report. Please follow your internal agency procedures in
forwarding final action correspondence to the Office of the Chief Financial Officer.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementation of
those recommendations for which management decision has not yet been reached. Please note
that the regulation requires a management decision to be reached on all recommendations within
6 months of report issuance.

We appreciate the cooperation and assistance provided by your staff during our audit.


\s\

ROBERT W. YOUNG
Assistant Inspector General
 for Audit
Executive Summary
EXOTIC NEWCASTLE DISEASE ERADICATION PROJECT -
COOPERATIVE/REIMBURSABLE AGREEMENTS (AUDIT REPORT NO. 33099-10-SF)

Results in Brief   In October 2002, an outbreak of Exotic Newcastle Disease (END) was
                   detected in Southern California. The Animal and Plant Health Inspection
                   Service (APHIS) awarded funding to the California Department of Food and
                   Agriculture (CDFA) through a cooperative agreement to eradicate the
                   disease. We reviewed the expenditure of award funds by CDFA for Federal
                   fiscal year 2003 expenses.

                   Although this report identifies a number of audit findings, we concluded that
                   CDFA had generally done a good job of controlling the expenditure of award
                   funds. We recognize the exceptionally difficult circumstances under which
                   they operated, and their need to make eradication of the disease their highest
                   priority. Working together, CDFA and APHIS contained the disease in
                   Southern California, and it did not spread into Central California, a
                   potentially catastrophic event.

                   During the course of the audit, we found that APHIS had not determined
                   whether it would exercise its option to take title to equipment purchased with
                   $473,963 in award funds by CDFA and the University of California-Davis,
                   under an arrangement with CDFA. At the time we identified this issue,
                   APHIS had only a short time remaining to assert ownership, so on January
                   20, 2004, we issued a management alert to APHIS. In response, APHIS
                   informed us that it had decided that it would assert ownership of the
                   equipment. Had APHIS not done so, title to the equipment would have
                   remained with CDFA or the University of California-Davis.

                   CDFA charged $128,404 in unallowable or unsupported costs to the USDA
                   award. These costs were not necessary and reasonable to accomplish the
                   purpose of the Federal award, or were not adequately supported, as required
                   by Office of Management and Budget Circular A-87. Questioned amounts
                   included
                      • The cost of a contract with a California county for preparation of a
                          surveillance work plan, the cost of which was a State obligation,
                      • Lease costs paid for several months after the leased space was
                          vacated,
                      • Vehicle repair costs that were unallowable because the repairs could
                          not reasonably be attributed to the vehicles’ use on the END project,
                          should have been paid by another State agency, or resulted from the
                          State’s failure to obtain vehicle insurance,


USDA/OIG-A/33099-10-SF                                                                   Page i
                     •   Purchases that were not adequately documented to allow us to verify
                         the allowability of the expense,
                     •   Erroneous payroll charges,
                     •   Costs of training that was not necessary or unrelated to the program,
                         and
                     •   Unallowable interest penalty costs.

                  CDFA had agreements or arrangements with other State agencies assisting on
                  the END project. We questioned $99,928 in costs claimed by the California
                  Department of Forestry and Fire Protection (CDF), and charged by CDFA to
                  the award, including
                     • The costs of paying overtime to employees substituting for CDF
                         employees temporarily assigned to the END project,
                     • Billings by local fire departments to recoup payments made to CDF to
                         pay for CDF employees who normally worked for the local fire
                         departments under contract, but had been temporarily assigned to the
                         END project, and
                     • Supplemental payments made to two CDF employees who were
                         ineligible for the additional pay.

                  We also found that CDF had (1) both overclaimed and underclaimed amounts
                  relating to another type of supplemental payment made to CDF employees,
                  and (2) underclaimed amounts due to an error in recording an employee’s job
                  classification. The questioned costs cited above have been reduced by the
                  underclaimed amounts.

                  See exhibit A for a summary of monetary results.

                  We also noted, in a general comment, that CDFA’s use of CDF personnel
                  resulted in significantly higher project costs than would have been incurred if
                  employees from other agencies had been used. The additional costs resulted
                  from the payment of “portal-to-portal” pay to most of the assigned CDF
                  employees. Portal-to-portal pay means that employees were paid for every
                  hour they were assigned to the project, including both duty and non-duty
                  hours (i.e., 24 hours a day). We estimated that the portal-to-portal payments
                  resulted in additional costs of $877,026 (based on the cost of all hours paid in
                  excess of 16 per day).

                  We are not making any recommendations relating to the increased costs
                  because the portal-to-portal payments were mandated by the CDF employees’
                  union contract, and because, under the specific circumstances of the END
                  project, there were valid reasons for using CDF. However, APHIS
                  management should be aware of the significantly increased costs that resulted
                  from using CDF, and we suggest that, in the event of another emergency in
                  California, APHIS consider whether less-costly resources could be used.

USDA/OIG-A/33099-10-SF                                                                   Page ii
Recommendations   In a management alert dated January 20, 2004, we recommended that APHIS
In Brief          decide whether to exercise its option to retain title to any equipment
                  purchased by CDFA or the University of California-Davis with award funds.

                  We also recommend that APHIS collect $228,332 from CDFA for the
                  questioned costs identified in this report, including $99,928 of the costs
                  claimed by CDF.

Agency            APHIS’ written response to the management alert, dated January 27, 2004,
Response          addresses Recommendation No. 1. In its response, APHIS stated that it had
                  decided to exercise its option to retain the equipment purchased with award
                  funds, and was taking steps to initiate the recovery.

                  APHIS’ written response to the draft report, dated December 27, 2004,
                  addresses Recommendations No. 2 and 3. In its response, APHIS stated that
                  it was in agreement with the findings and would work with CDFA to collect
                  the overpayments.

                  APHIS’ written responses are included as exhibits C and D to this report.

OIG               We accepted APHIS’ management decision on Recommendation No. 1. The
Position          actions needed to reach management decision on Recommendations No. 2
                  and 3 are detailed in the Findings and Recommendations section of the
                  report.




USDA/OIG-A/33099-10-SF                                                                Page iii
Abbreviations Used in This Report


ADODR       Authorized Departmental Officer’s Designated Representative
APHIS       Animal and Plant Health Inspection Service
CCC         California Conservation Corps
CDF         California Department of Forestry and Fire Protection
CDFA        California Department of Food and Agriculture
CFR         Code of Federal Regulations
DGS         Department of General Services
END         Exotic Newcastle Disease
FSB         Financial Services Branch
GIS         Geographical Information Systems
ICA         Incident Command Assignment
ICS         Incident Command System
IRS         Immediate Response Status
OES         Governor’s Office of Emergency Services
OIG         Office of Inspector General
OMB         Office of Management and Budget
UCD         University of California – Davis
USDA        United States Department of Agriculture




USDA/OIG-A/33099-10-SF                                                    Page iv
Table of Contents

Executive Summary ...............................................................................................................................i

Abbreviations Used in This Report ....................................................................................................iv

Background and Objective ..................................................................................................................1

Findings and Recommendations..........................................................................................................3

   Section 1. Equipment Purchased With Award Funds..................................................................3

        Finding 1             APHIS Had Not Determined If It Would Exercise its Option to Take Title
                              to Equipment Purchased with Award Funds .........................................................3
                                   Recommendation No. 1 ................................................................................5

   Section 2. California Department of Food and Agriculture Expenditures.................................6

        Finding 2             CDFA Claimed Unallowable or Unsupported Costs ............................................6
                                 Recommendation No. 2 ..............................................................................14

  Section 3. California Department of Forestry and Fire Protection Expenditures....................15

        Finding 3             CDF Claimed Unallowable Costs .......................................................................15
                                  Recommendation No. 3 ..............................................................................20

General Comment                 ...........................................................................................................................22

Scope and Methodology......................................................................................................................24

Exhibit A – Summary of Monetary Results .....................................................................................26
Exhibit B – Details of Questioned Costs - Findings 2 and 3 ...........................................................27
Exhibit C – Agency Response to the Management Alert ................................................................28
Exhibit D – Agency Response to the Draft Audit Report................................................................29




 USDA/OIG-A/33099-10-SF                                                                                                                           Page v
Background and Objective
Background        On October 1, 2002, an outbreak of Exotic Newcastle Disease (END) was
                  confirmed in Southern California. END is a contagious and fatal viral
                  disease affecting all species of birds. While not a threat to humans, it is so
                  virulent that many birds die without developing any observable signs of the
                  disease. Although END was predominantly found in backyard flocks, it also
                  posed a serious threat to the commercial poultry industry. The END outbreak
                  affected interstate and foreign commerce, as a number of countries prohibited
                  the importation of poultry from the affected areas. For this reason, END
                  potentially impacted the national economy.

                  To combat the END outbreak, the California Department of Food and
                  Agriculture (CDFA), under an $5.0 million cooperative agreement with the
                  Animal and Plant Health Inspection Service (APHIS), dated October 28,
                  2002, began efforts to eradicate the disease by destroying infected flocks and
                  disinfecting diseased premises.

                  However, the disease continued to spread, and on January 6, 2003, the
                  Secretary of Agriculture, in accordance with the Animal Health Protection
                  Act (7 United States Code 8306), declared an "extraordinary emergency" in
                  the State of California. This declaration allowed the Secretary to take direct
                  action to prevent the dissemination of the disease, and APHIS took a more
                  direct role, participating jointly with CDFA in the project. To cover
                  anticipated costs, the cooperative agreement was revised to increase the
                  award to $53.2 million. Subsequent revisions reduced the award down to
                  $27.4 million, as funding needs were more accurately determined.

                  The last case of END was identified in May 2003. However, ongoing
                  surveillance continued in California to ensure that END was completely
                  eradicated.

                  As of October 8, 2003, APHIS had entered into numerous agreements with
                  Federal, State, and local agencies for the eradication of END. The
                  agreements, totaling $54.3 million, included 17 agreements with Federal
                  agencies and 27 agreements with State and local agencies. The $27.4 million
                  awarded to CDFA represented 51 percent of this total.

                  On January 29, 2004, CDFA submitted its final request for reimbursement,
                  totaling $26.7 million, to APHIS. Included in this amount was $15.9 million
                  paid by CDFA to four other State agencies assisting in the END project: the
                  University of California-Davis (UCD), the California Conservation Corps
                  (CCC), the California Department of Forestry and Fire Protection (CDF), and
                  the Governor’s Office of Emergency Services (OES).

USDA/OIG-A/33099-10-SF                                                                 Page 1
Objective         Our objective was to determine if expenditures made by CDFA under the
                  cooperative agreement with APHIS were allowable and supported.

                  Our scope covered Federal fiscal year 2003. See the Scope and Methodology
                  section of this report for full details.




USDA/OIG-A/33099-10-SF                                                             Page 2
Findings and Recommendations
Section 1.        EQUIPMENT PURCHASED WITH AWARD FUNDS

Finding 1         APHIS Had Not Determined If It Would Exercise its Option to
                  Take Title to Equipment Purchased with Award Funds

                  During the course of the audit, we became aware that APHIS had not
                  determined whether it would exercise its option to take title to equipment
                  purchased with award funds.           We attributed this to inadequate
                  communication between CDFA and APHIS regarding the purchases. At the
                  time we identified this issue, APHIS had only a short time remaining to assert
                  ownership, and on January 20, 2004, we issued a management alert to
                  APHIS. We recommended that APHIS decide whether to assert ownership;
                  and if it decided to do so, notify CDFA of the decision by the January 28,
                  2004 deadline. In its response to the management alert, APHIS informed us
                  that it would notify CDFA that it would assert ownership of the equipment.
                  Had APHIS not done so, title to the equipment would have remained with
                  CDFA (the grantee) and, as explained below, UCD.

                  The terms of APHIS’ agreement with CDFA allowed APHIS to take title to
                  equipment purchased with award funds. APHIS was required to notify
                  CDFA of its intent to exercise this option within 120 days of the end of the
                  award. Because the agreement expired on September 30, 2003, the 120-day
                  period expired on January 28, 2004.

                  CDFA and UCD expended $473,963 for equipment subject to these
                  provisions. The $473,963 included (1) $279,845 expended by CDFA for
                  modular trailers and (2) $194,118 expended by UCD for other equipment.

                  UCD’s California Animal Health and Food Safety lab system is responsible
                  for performing avian (bird) testing in the State of California. While part of
                  UCD, the lab system operates under the direction of CDFA, which also
                  provides most of its funding. To accommodate the anticipated volume of
                  testing necessary for the END project, UCD needed to expand and upgrade
                  its existing lab facilities in San Bernardino, California.

                  CDFA procured two modular trailers for the San Bernardino lab, one used
                  trailer which it modified for use as a lab and another trailer that was custom-
                  built to its specifications. Both trailers were procured through lease/purchase
                  arrangements for a total cost of $279,845.




USDA/OIG-A/33099-10-SF                                                                  Page 3
                             Additional equipment, such as centrifuges, freezers, incubators, and biosafety
                             cabinets, was necessary to handle the high volume of testing. UCD
                             purchased equipment for $258,794 and billed the costs to CDFA. Only a
                             portion of these costs was subject to the title provisions. The cost principles
                             in Office of Management and Budget (OMB) Circular A-871 applied to the
                             agreement, and they define equipment as having a cost of $5,000 or more and
                             a useful life of over 1 year.2 Of the $258,794 in purchases made by UCD, the
                             cost of items meeting this definition of equipment was $194,118.3

                             We attributed APHIS officials’ failure to make a decision regarding the
                             equipment title to their not being adequately informed of the purchases.
                             Although OMB Circular A-87 requires documented advance approval of
                             equipment purchases, we could not locate documentation of any such
                             approvals. Documents submitted to APHIS provided no specific details of
                             proposed equipment acquisitions.

                             State officials explained that due to the emergency, there was an urgent need
                             to acquire the trailers and equip the labs as quickly as possible. They told us
                             that to expedite the process, the purchases were approved verbally rather than
                             in writing. Both CDFA and UCD officials told us that APHIS was aware of
                             and had verbally approved the equipment purchases.

                             However, our interviews with various APHIS officials failed to establish
                             what APHIS knew about the equipment purchases or had approved. The
                             person responsible for administering the cooperative agreement for APHIS,
                             including approving equipment purchases, was the Authorized Departmental
                             Officer’s Designated Representative (ADODR). The ADODR stated he was
                             aware that the trailers were being procured, but he did not have specific
                             knowledge of the details, including whether they were leased or purchased.4
                             He was unaware that UCD had purchased equipment that had been charged
                             to the award. Other APHIS officials we interviewed also told us they had
                             only a general knowledge of the purchases, and none stated that they had
                             approved the purchase.

                             We concluded that APHIS officials, including the ADODR, were aware of
                             CDFA’s intent to procure the trailers and equipment with award funds, but
                             did not have a detailed knowledge of the purchases. We agree that the
                             circumstances of the emergency required that immediate actions be taken.
                             However, we believe that at a minimum, CDFA could have, and should have,
1
  The agreement mandated compliance with 7 CFR 3016, and 7 CFR 3016.22 (b) mandates compliance with OMB Circular
A-87, “Cost Principles for State, Local, and Indian Tribal Governments.”
2
  OMB Circular A-87, attachment B, paragraph 19 a (2), dated August 29, 1997, and 7 CFR 3016.3, effective May 19,
1995.
3
  The $64,631 difference was the cost of items costing under $5,000 per item, which were not subject to these provisions.
4
  If leased, the equipment would not have been subject to provisions applicable to equipment purchases.

    USDA/OIG-A/33099-10-SF                                                                                     Page 4
                  better informed the ADODR of its intention to purchase equipment with
                  award funds, and provided him with specific details of the items to be
                  purchased and their costs. We also believe that APHIS officials, having an
                  awareness of the proposed purchases, could have acted to obtain the
                  additional information from CDFA. We believe that had the ADODR been
                  adequately informed of the equipment purchases, the possibility of APHIS
                  unintentionally relinquishing title to the equipment could have been avoided.

                  We reported this condition to the Administrator of APHIS in a January 20,
                  2004 management alert. Our recommendation and APHIS’ response are
                  shown below.

Recommendation No. 1

                  APHIS should decide whether to exercise its option to retain title to the
                  equipment purchased for $473,963 by CDFA or UCD with award funds. If it
                  decides to do so, APHIS should notify CDFA of this decision within the 120-
                  day period.

                  Agency Response. In its written response to the management alert, dated
                  January 27, 2004, APHIS stated that the “Animal and Plant Health Inspection
                  Service has decided to exercise its option to retain the equipment purchased
                  with award funds, and we are taking steps to initiate this recovery.”

                  In follow-up correspondence dated February 6, 2004, APHIS provided a copy
                  of its letter to CDFA stating that APHIS would exercise its right to transfer
                  title to the equipment to APHIS, and that it intended to enter into an
                  agreement with UCD allowing UCD to continue to use the equipment.
                  APHIS also requested a full and complete inventory of the equipment
                  purchased with award funds.

                  OIG Position.       We accept APHIS’ management decision on this
                  recommendation.




USDA/OIG-A/33099-10-SF                                                                Page 5
    Section 2.             CALIFORNIA DEPARTMENT OF FOOD AND AGRICULTURE
                           EXPENDITURES

    Finding 2             CDFA Claimed Unallowable or Unsupported Costs


                           CDFA charged unallowable or unsupported costs to the USDA award. The
                           overclaimed amounts occurred for the reasons cited below, and resulted in
                           CDFA overcharging the USDA award a total of $128,404.

                           CDFA was required to comply with the cost principles in Office of
                           Management and Budget (OMB) Circular A-87.5 The circular states

                                      To be allowable under Federal awards, costs must meet the
                                      following general criteria: … be necessary and reasonable
                                      for proper and efficient performance and administration of
                                      Federal awards.6

                           The circular further states

                                      A cost is reasonable if, in its nature and amount, it does not
                                      exceed that which would be incurred by a prudent person
                                      under the circumstances prevailing at the time the decision
                                      was made to incur the cost … In determining reasonableness
                                      of a given cost, consideration shall be given to … whether
                                      the cost is of a type generally recognized as ordinary and
                                      necessary for the operation of the governmental unit or the
                                      performance of the Federal award.7

                           We questioned $128,404 in charges that we concluded were not allowable or
                           adequately supported. As detailed below, the questioned amounts included
                           the cost of a surveillance work plan which was a State obligation, lease costs
                           paid after the space was vacated, vehicle repair costs that were unallowable
                           for various reasons, inadequately documented purchases, erroneous payroll
                           charges, unrelated or unnecessary training costs, and unallowable interest
                           penalty costs.




5
  The cooperative agreement mandated compliance with 7 CFR 3016. Section 22 (b) of the CFR mandated compliance
with OMB Circular A-87, “Cost Principles for State, Local, and Indian Tribal Governments.”
6
  OMB Circular A-87, attachment A, paragraph C 1 a, dated August 29, 1997.
7
  OMB Circular A-87, attachment A, paragraph C 2, dated August 29, 1997.

    USDA/OIG-A/33099-10-SF                                                                           Page 6
                              a.   CDFA Charged Portion of State-Contributed Cost to USDA Award

                                   CDFA erroneously charged the costs of a work plan to the USDA award,
                                   when the costs should have been paid by the State. According to CDFA
                                   officials, this occurred due to inadequate communication between
                                   incident management in Southern California and CDFA headquarters
                                   accounting staff. As a result, CDFA overcharged the award $47,569.

                                   CDFA entered into a purchase agreement with Stanislaus County,
                                   California, for the county to prepare an END surveillance work plan.
                                   According to CDFA, the purpose of the work plan was to provide
                                   direction to county personnel carrying out END surveillance activities.
                                   The county invoiced CDFA $47,569 for the plan, and this cost was
                                   charged to the award. However, CDFA told us that this cost should have
                                   been paid by the State, not USDA. As part of its contribution to the
                                   END project, the State had agreed to contribute $800,000 in State
                                   emergency funds, and this contribution was incorporated into the terms
                                   of the cooperative agreement. The $47,569 cost of the work plan was
                                   specifically designated by the State as part of that contribution.

                              b.   Unallowable Lease Costs

                                   CDFA charged the award the cost of leasing space although it had
                                   vacated the property. According to CDFA officials, this occurred
                                   because incident management did not timely instruct CDFA’s accounting
                                   staff to discontinue the payments. As a result, CDFA overcharged the
                                   award by $32,287.

                                   In October 2002, CDFA began leasing space from the California Army
                                   National Guard for its incident command post, located in a gymnasium at
                                   the Guard’s Joint Forces Training Center in Los Alamitos. The base rent
                                   was $5,381 per month, and CDFA incurred additional charges for such
                                   things as the use of additional rooms, parking space, space
                                   modifications, and telecommunications services.

                                   Because the space proved unsuitable, CDFA moved the command post
                                   to another location and vacated the Los Alamitos site by the end of
                                   February 2003. However, CDFA continued to charge the award for
                                   lease payments through October 2003. CDFA discovered the error and
                                   discontinued the lease payments in November 2003.

                                   Six monthly payments, totaling $32,287, were claimed for months
                                   subsequent to February 2003.8   These charges were not allowable

8
    The 6 months were May through October 2003. A charge was recorded and reversed for March 2003, and no charge was

    USDA/OIG-A/33099-10-SF                                                                                Page 7
                                  because they were not reasonable and necessary, as required by OMB
                                  Circular A-87, because they did not contribute to the purpose of the
                                  agreement, which was “to provide Federal financial assistance to conduct
                                  program activities of mutual interests and aid in accomplishing
                                  eradication of Exotic Newcastle Disease.”

                             c.   Unallowable Vehicle Costs

                                  CDFA claimed vehicle expenditures that were unallowable, including (1)
                                  the cost of repairs that were charged in full to END although END
                                  accounted for only a small portion of the vehicles’ mileage, (2) the cost
                                  of repairs to an uninsured rental vehicle, (3) costs that should have been
                                  paid by another State agency, and (4) the cost of repairs to vehicles that
                                  were not used on the END project. Consequently, CDFA overcharged
                                  the USDA award $13,812.

                                  CDFA charged $52,513 in five vehicle-related expense categories to the
                                  award.9 We reviewed $50,680 of this amount, representing repairs or
                                  services to 26 vehicles. We identified $13,812 in unallowable costs
                                  relating to 10 of the vehicles.

                                  Costs Not Fully Allocable to the END Project. CDFA charged the full
                                  cost of repairs to six CDFA-owned vehicles to END, even though the
                                  mileage driven on the END project represented only a small portion of
                                  the total miles on the vehicles. This occurred because program staff
                                  believed that the END program was responsible for all repairs and
                                  maintenance occurring while they were using the vehicles. We
                                  questioned repair and maintenance costs totaling $7,844.

                                  OMB Circular A-87 allows costs to be allocated to a Federal program
                                  only to the extent the program benefits from the expenditure.10 We
                                  concluded that the cost of the repairs, which included such items as a
                                  new engine, brake shoes, and shock absorbers, should not have been
                                  allocated in full to the END program because the number of miles driven
                                  for the END project was a small part of the vehicles’ total mileage: on
                                  average, about five percent.




recorded for April 2003.
9
   CDFA charged an additional $40,333 in vehicle-related expenditures in two other categories (vehicle fuel and car
washes), but because these categories included a large number of small dollar-value transactions, we did not perform a
detailed review of them.
10
   OMB Circular A-87, attachment A, paragraph C 3 a, dated August 29, 1997.

 USDA/OIG-A/33099-10-SF                                                                                     Page 8
                                       Vehicle ID       Total Vehicle      Miles used   Percentage of total mileage
                                        Number             Miles           for END         attributable to END

                                         405815            27,027              408                 1.5

                                         405818            43,086              5,150               12.0

                                          41070            93,894              4,657               5.0

                                          41071            78,692              2,377               3.0

                                         410664            93,709              3,604               3.9

                                         959859            79,865              4,239               5.3

                                      Average Percentage of Miles Attributable to END              5.1


                                    We concluded that most of the use resulting in the needed repairs was
                                    attributable to programs other than END. We determined the percentage
                                    of miles attributable to the END program for each vehicle, and allowed
                                    that portion of the costs claimed. We questioned the balance of costs
                                    claimed, totaling $7,844.

                                    Accident Repairs. We reviewed an invoice totaling $5,250 to repair
                                    damage resulting from an accident involving a truck rented for the END
                                    project. The State normally rents vehicles under pre-established
                                    contracts with rental companies that include insurance coverage.
                                    However, the type of vehicle needed was not available from the
                                    contracted companies. The State rented from a different company and
                                    failed to obtain insurance coverage. This vehicle was subsequently
                                    involved in an accident resulting in damage to the truck’s cargo box.

                                    OMB Circular A-87 states

                                           Actual losses which could have been covered by permissible
                                           insurance (through a self-insurance program or otherwise)
                                           are unallowable…11

                                    Because the State failed to obtain protection for this rented vehicle, the
                                    State is responsible for the loss. Consequently, the Federal award was
                                    overcharged $5,250.



11
     OMB Circular A-87, attachment B, paragraph 25 c, dated August 29, 1997.

 USDA/OIG-A/33099-10-SF                                                                                     Page 9
                                  DGS Vehicle. The State Department of General Services (DGS)
                                  provided one vehicle to the END project. While assigned to END, DGS
                                  retained the responsibility for maintaining the vehicle. However, CDFA
                                  paid $474 to repair the vehicle and charged the cost to the USDA award.
                                  We questioned this cost because it should have been paid by DGS.

                                  Wrong Program. We questioned $244 in costs charged by CDFA for
                                  two vehicles that, according to the repair invoices and vehicle logs, had
                                  not been used on the END project.

                                  We recommend that APHIS recover $13,812 for vehicle expenditures
                                  that were incorrectly charged to the Federal award.

                             d.   Inadequately Documented Purchases

                                  CDFA did not adequately support $13,241 in costs charged to the
                                  program. According to CDFA officials, this occurred because staff was
                                  not adequately trained on documentation requirements. As a result, there
                                  was no assurance that the costs charged to the award were allowable.

                                  Some project costs charged to the award were incurred by CDFA
                                  employees using Cal-Card, a State credit card. The card is issued to
                                  employees for making authorized small purchases. The monthly Cal-
                                  Card bill is sent to the cardholder but paid by the State. Before being
                                  paid, the approving official (the cardholder’s supervisor) must certify
                                  that the purchases were authorized.

                                  The use of the card is governed by CDFA’s Cal-Card User’s Manual.
                                  The manual requires the cardholder to submit invoices or receipts for all
                                  charges with each bill submitted for approval. The invoice is required to
                                  show a “description of commodities/services procured, quantities
                                  procured, price per item, amount of sales tax (if applicable), total
                                  amount, shipping charges, if the Department is liable, (and) date of
                                  transaction.”12

                                  We reviewed 12 Cal-Card billings, totaling $57,466,13 in two budget
                                  categories (non-classified goods and non-classified printing) and found
                                  that the required supporting invoices or receipts were not submitted for
                                  $13,241 in expenditures. In lieu of receipts, cardholders submitted
                                  “cardholder statement of questioned item” forms. These forms are used
                                  to document disputed procurements and contain a number of boxes that
                                  can be checked off. For the transactions reviewed, the “copy request ”
12
   CDFA, Cal-Card, Small Purchase Card Program User’s Manual, pages 7-8, dated October 2003.
13
   The two budget categories included a total of 31 Cal-Card transactions totaling $61,484. We judgmentally selected the
transactions for review, generally selecting the larger dollar value transactions.

 USDA/OIG-A/33099-10-SF                                                                                     Page 10
                                  box was marked. By marking this box, the cardholder states “I recognize
                                  this charge, but need a copy of the sales draft for my records.” This form
                                  is submitted to US Bank, the Cal-Card contractor, who is supposed to
                                  provide a copy of the sales draft to the cardholder. According to
                                  accounting staff, after the cardholder receives the draft copy, it should be
                                  submitted to the approving official, who should sign off and forward it to
                                  accounting for filing. We were told that, at the end of the year, if any of
                                  the receipts were still missing, accounting would follow up to obtain
                                  them.

                                  However, the files we reviewed seldom contained evidence of the
                                  follow-up actions described above. Where there was evidence of follow-
                                  up, in most cases the documents provided did not contain the information
                                  required by the manual. The document provided was generally a
                                  facsimile of the charge slip, showing the vendor and cardholder
                                  signature, but not the details of the items procured. None of the sales
                                  drafts we saw for the items we questioned included sufficient
                                  information.

                                  Furthermore, the Cal-Card manual does not provide for this alternative
                                  procedure. It states that an itemized invoice is required, and does not
                                  provide for an exception. The use of the cardholder statement form does
                                  not appear to be intended to be an allowable substitute for submitting a
                                  receipt.

                                  Since the Cal-Card program is administered by DGS, we reviewed DGS’
                                  Cal-Card procedures. We found that they also required that sales
                                  receipts be submitted, and did not provide for exceptions. The
                                  procedures discuss the use of the cardholder statement form only for the
                                  purposes of disputed charges (i.e., the items in question were incorrect,
                                  faulty, or had been returned), not as a substitute for missing receipts.14

                                  Regulations require CDFA to account for award funds in the same
                                  manner that would apply to the expenditure of State funds.15        In
                                  addition, OMB Circular A-87 requires that, to be allowable, costs must
                                  be adequately documented.16         Without adequate documentation
                                  describing the items purchased, we were unable to verify they
                                  represented allowable expenditures of award funds.




14
   Cal-Card Cardholder’s Guide, sections 3 B 2, 6 A 4, and 6 B, dated December 18, 2003.
15
   7 CFR 3016.20 (a), effective May 19, 1995.
16
   OMB Circular A-87, attachment A, paragraph C 1 j, dated August 29, 1997.

 USDA/OIG-A/33099-10-SF                                                                             Page 11
                             e.   Errors in Claiming Payroll Expenditures

                                  CDFA did not accurately charge the award for payroll expenses. This
                                  occurred because CDFA inadvertently (1) recorded some expenses in
                                  two different accounting categories (object codes) and (2) charged some
                                  costs to the wrong program.          These errors resulted in CDFA
                                  overcharging the award $11,564.

                                  CDFA records all costs charged in its accounting system according to
                                  “object code.” There is a separate object code for each cost category,
                                  such as overtime, minor equipment, and per diem. Information from
                                  each object code is consolidated to compile form SF-270, “Request for
                                  Advance or Reimbursement,” which CDFA submits to APHIS to claim
                                  reimbursement. The recording of the same expense under two object
                                  codes would result in CDFA being reimbursed twice for the same
                                  expenses.

                                  CDFA charged $2,985,715 to the award for salaries and overtime under
                                  five object codes. We reviewed a sample of transactions from each
                                  object code, judgmentally selecting 81 time and attendance records,
                                  totaling $190,399,17 generally representing the largest expenditures. We
                                  found that CDFA did not accurately charge the award for three
                                  employees. CDFA had made duplicate charges to the award for two
                                  employees, and charged the award for another employee who was not
                                  working on the END project.

                                  Incorrect Charge. We identified two employees for whom CDFA had
                                  inadvertently recorded the payroll expense under two separate object
                                  codes.

                                  •   CDFA double-claimed $6,298 in wages paid to employee A for
                                      overtime earned in January 2003 because the expense was recorded
                                      under “salary and wage charge from other programs” and “overtime
                                      support.” In addition, a mathematical error resulted in employee A
                                      being overpaid $1,403 for overtime earned in January 2003. As a
                                      result of both errors, CDFA overcharged the award $7,701.



17
  The 5 object codes were “special pay,” “temp help support,” “temp help C/A,” “overtime support,” and “salary and wage
charge from other programs.” We selected our sample from transactions totaling $961,976 and posted (1) between
November 2002 and August 2003 to the Salary and Wage Charge from Other Programs object code, and (2) in March and
June 2003 for the other 4 object codes. There were 71 employees represented in our sample of 81 time and attendance
records.

 USDA/OIG-A/33099-10-SF                                                                                     Page 12
                         •   CDFA double-claimed $1,914 in wages paid to employee B for
                             January 2003 because the expense was recorded under both “salary
                             and wage charge from other programs” and “overtime support.”

                         Time Charged to Incorrect Program. CDFA inadvertently charged the
                         award $1,949 for overtime earned by employee C in January 2003,
                         when, in fact, that employee was working on a project that was not
                         related to END.

                         During our fieldwork in December 2002 and January 2003, we discussed
                         these issues with CDFA personnel and they concurred with our analysis.
                         In total, we recommend that APHIS recover $11,564 from CDFA.

                  f.     Unallowable Training Costs

                         CDFA claimed training costs that appeared unnecessary for or unrelated
                         to the END project. As a result, CDFA overcharged the USDA award
                         $7,549.

                         The questioned amount includes
                         • $4,579 in vouchers for on-line geographical information system
                            (GIS) training, and
                         • $2,970 in vouchers for classroom training in general computer topics.

                         CDFA charged $4,579 to the award for training vouchers purchased
                         from Environmental Systems Research Institute, Inc. These vouchers
                         were purchased in June 2003, but as of January 2004, none of the on-line
                         GIS training courses had been taken.

                         Training was also purchased from New Horizons Computer Learning
                         Center (New Horizons). In May 2003, CDFA purchased 30 training
                         vouchers from the vendor for $2,970. Each voucher entitled one person
                         to attend a one-day classroom training session. According to a vendor
                         representative, New Horizons provides training on such general
                         computer topics as Microsoft Word, PowerPoint, Outlook, and Excel.

                         As of December 2003, CDFA had not used any of the 30 vouchers, and
                         in fact, had another 13 vouchers remaining from an earlier purchase of
                         30 vouchers in June 2002, before the END project began.

                         We questioned the necessity of these expenditures because none of the
                         training vouchers had been used by January 2004; and in the case of the
                         New Horizons training, it was not specifically related to END project
                         activities. We concluded these expenses were not reasonable and
                         necessary, as required by OMB Circular A-87.

USDA/OIG-A/33099-10-SF                                                                 Page 13
                  g.     Unallowable Interest Penalty Costs

                         CDFA incurred and claimed unallowable interest penalties. The
                         penalties occurred because CDFA staff (1) did not always route invoices
                         to CDFA’s Financial Services Branch (FSB) in a timely manner and (2)
                         ordered some items without a proper purchase order. As a result, CDFA
                         overcharged $2,382 to the USDA award.

                         For END-related services or products, vendors mailed invoices either to
                         CDFA’s Animal Health Branch in Sacramento, California, or to field
                         personnel in Southern California. CDFA’s payment procedures required
                         an authorized END program official to approve the invoice for payment
                         before it was forwarded to the FSB for payment. Upon receipt, FSB
                         date-stamped the invoice and verified that a proper purchase order was
                         on file before processing the invoice for payment.

                         CDFA paid nine invoices late, resulting in the $2,382 in interest
                         penalties. Seven of the nine invoices had not been received by FSB in
                         time to avoid the penalties (6 of the 7 were received after the due date).

                         The remaining two invoices were paid late because FSB discovered that
                         items (gloves and boot covers) had been purchased without a proper
                         purchase order. During the time it took to correct this error and generate
                         a proper purchase order (covering both invoices), the due date expired.

                         We questioned these costs because they could have been reasonably
                         avoided and interest penalties would not generally be recognized as
                         ordinary and necessary for the operation of an award, as required by
                         OMB Circular A-87.

Recommendation No. 2

                  Collect $128,404 from CDFA for the unallowable or unsupported costs.

                  Agency Response. In its written response to the draft report, dated
                  December 27, 2004, APHIS stated that it was in agreement with the finding
                  and would work with CDFA to collect the overpayment.

                  OIG Position. To reach management decision, APHIS should provide us a
                  copy of the bill for collection of the overpaid amounts, and documentation to
                  support that the amounts have been entered as a receivable on APHIS’
                  accounting records.




USDA/OIG-A/33099-10-SF                                                                   Page 14
Section 3.        CALIFORNIA DEPARTMENT OF FORESTRY AND FIRE
                  PROTECTION EXPENDITURES

Finding 3         CDF Claimed Unallowable Costs


                  CDF claimed costs that were unallowable. These overclaimed costs were
                  partly offset by allowable costs, which CDF failed to claim. The errors
                  occurred for a variety of reasons, as detailed below. Overall, the errors
                  resulted in CDF overclaiming $99,928.

                  CDF, along with several other State agencies, participated in the END project
                  through interagency agreements with CDFA. Under the interagency
                  agreement, CDF provided staff to support the project and CDFA reimbursed
                  CDF for its costs.

                  CDF was tasked with implementing and staffing the “incident command
                  system” (ICS) for the project. The ICS is a standardized system widely used
                  by Federal, State, and local agencies to respond to emergency situations. ICS
                  provides a pre-established organizational structure under which personnel
                  from multiple agencies can respond to an emergency in a unified and
                  effective manner.

                  CDF billed CDFA $4.1 million for its costs related to the END project. Most
                  of this amount, $3.1 million, was for personnel costs.

                  We questioned $99,928 in costs claimed by the CDF. These included the
                  costs of paying overtime to employees substituting for CDF employees
                  temporarily assigned to the END project, billings by local fire departments to
                  recoup payments made to CDF to pay for CDF employees who normally
                  worked for the local fire departments under contract, but had been
                  temporarily assigned to the END project, and supplemental payments made
                  to two CDF employees who were ineligible for the additional pay.

                  a.     Backfill Costs Claimed by CDF were not Reasonable and Necessary

                         CDF claimed the cost of overtime paid to its employees who
                         “backfilled” the positions of other CDF employees temporarily assigned
                         to the END project. According to CDF, it claimed these costs to recoup
                         the additional costs it incurred by having to replace the employees.
                         However, we concluded these charges did not represent additional costs
                         to CDF, and therefore questioned the full $68,980 in backfill costs
                         claimed.



USDA/OIG-A/33099-10-SF                                                                Page 15
                                  Certain CDF positions are critical and must be staffed at all times. For
                                  example, a fire station may need to have a minimum number of
                                  firefighters on-site at all times to respond to calls. When employees
                                  filling these positions were temporarily assigned to the END project,
                                  CDF used other employees to temporarily fill (“backfill”) the vacated
                                  positions.

                                  Sixty-nine CDF employees backfilled the positions of at least 27 other
                                  CDF employees temporarily assigned to END.18 CDF paid the regular
                                  salaries of the employees backfilling the positions but charged the END
                                  project for the overtime costs they incurred.

                                  As previously noted, CDFA was required to comply with the cost
                                  principles in OMB Circular A-8719 in charging costs to the award. The
                                  circular requires that costs be necessary and reasonable. To evaluate the
                                  reasonableness of the costs charged, we reviewed a sample of four
                                  employees whose positions had been backfilled, and found that for our
                                  sample, CDF had actually expended less overall than it normally would
                                  have. This occurred because CDF was able to charge END for the
                                  normal payroll costs of the employees it assigned to the project, and was
                                  therefore relieved of costs it would have otherwise incurred.

                                  CDF charged END $19,054 for the four employees in our judgmental
                                  sample, representing 28 percent of the $68,980 in backfill costs it
                                  charged. For three of the four positions, the backfill costs were less than
                                  the costs CDF would normally have incurred. For the fourth position,
                                  the backfill costs were slightly more. The normal costs of the four
                                  positions would have been $17,400. Although CDF charged $19,054,
                                  the actual cost of backfilling the four positions was $15,336. The
                                  discrepancy resulted from CDF erroneously including backfill costs for
                                  periods that three of the four employees were not scheduled to work, and
                                  charging 26 hours for one day for the fourth employee in our sample.

                                  We concluded it was not reasonable for CDF to charge the full amount
                                  of the overtime costs to END because CDF’s costs did not increase by
                                  this amount, if at all. We believe that CDF should have charged backfill
                                  costs only to the extent they represented increased costs to the agency
                                  (i.e., the additional costs exceeded cost savings).



18
   On some occasions, different employees backfilled a single position on different days. We were unable to identify the
exact number of positions that were backfilled because CDF records did not always identify the name of the person being
backfilled.
19
   The cooperative agreement mandated compliance with 7 CFR 3016. Section 22 (b) of the CFR mandated compliance
with OMB Circular A-87, “Cost Principles for State, Local, and Indian Tribal Governments.”

 USDA/OIG-A/33099-10-SF                                                                                     Page 16
                                     We discussed our conclusions with CDF officials, who agreed with our
                                     position. Based on the minimal amount of the charges and the additional
                                     analysis that would be necessary to determine the net increase in costs, if
                                     any, they did not believe that further work was warranted. They agreed
                                     with our intent to disallow the full amount claimed for backfill.

                                b.   Unallowable Payments to Local Fire Departments

                                     CDF charged END for unallowable payments made to local fire
                                     departments. According to a CDF official, the charges occurred due to
                                     an inadvertent error. As a result, CDF overclaimed $39,761.

                                     CDF provides staff to some local fire departments, and in return, the
                                     local fire departments pay some or all of the CDF employees’ payroll
                                     costs. CDF charged $39,761 in local fire department billings to the END
                                     project, which we reviewed in full. Three CDF employees, who
                                     normally work under this arrangement for 8 local fire departments,20
                                     were temporarily assigned to END. To recoup the payroll costs for the
                                     period the employees were reassigned, the local fire departments
                                     invoiced CDF for these costs, totaling $39,761. CDF included these
                                     costs on their claims to CDFA. We questioned these costs, because they
                                     represented a double billing to the END project, as the employees’
                                     payroll costs while assigned to END had also been charged to the
                                     program. This issue was discussed with CDF officials, who agreed that
                                     the charges represented a double billing, and should not have been
                                     claimed.

                                c.   Two Ineligible Employees Received Portal-To-Portal Pay

                                     CDF paid portal-to-portal pay to two ineligible employees. According
                                     to CDF, the on-site timekeeper erroneously assumed that the employees
                                     were entitled to this pay. The error resulted in CDF overclaiming
                                     $15,598.

                                     The bargaining agreement between CDF and the firefighters’ union
                                     provides that covered employees be compensated for all hours they are
                                     assigned to an incident for which the Governor has issued a disaster
                                     declaration21 (referred to as “portal-to-portal” pay). In other words,
                                     employees are paid for every hour they are assigned to the incident; i.e.,
                                     24 hours a day. Any hours in excess of the employee’s regular tour of
                                     duty are paid at an overtime rate. Most CDF employees assigned to
                                     END worked details of 2 to 3 weeks, and some employees worked more
                                     than 1 detail.
20
     One of the employees worked for 6 fire departments.
21
     This occurred on January 7, 2003.

 USDA/OIG-A/33099-10-SF                                                                               Page 17
                                  The bargaining agreement22 between CDF and the firefighters’ union23,
                                  specifically states

                                          …when fire protection employees… who are assigned to an
                                          incident for which the Governor has invoked Government
                                          Code Section 8625 and issues a disaster declaration, [they]
                                          will be placed on IRS [immediate response status] for the
                                          entire time assigned to the incident. [24]

                                  The agreement also states that

                                          While on IRS, employees will be compensated for all hours
                                          assigned to the incident from the time of dispatch to the
                                          time at which the incident is declared controlled.

                                  Portal-to-portal payments were made to 142 of the 174 CDF employees
                                  assigned to the END project. We found that 2 of the 142 employees
                                  should not have been paid the additional pay because they were not
                                  covered by the bargaining agreement. According to CDF, the error most
                                  likely resulted from the employees’ timekeeper, when entering payroll
                                  data, erroneously assuming that the employees were entitled to portal-to-
                                  portal pay. They believed the timekeeper could have easily made this
                                  error because CDF has very few positions that are not covered by the
                                  agreement.

                                  Because records were not kept of actual hours worked on the END
                                  project, we could not confirm the correct number of hours that should
                                  have been charged. However, we found that employees assigned to
                                  END who did keep track of their time, worked an average of 14 hours a
                                  day. To determine the amount overcharged, we calculated the cost of all
                                  hours paid in excess of 16 per day, based on the assumption that each
                                  employee did not work more than 16 hours per day. We concluded that
                                  CDF overcharged $15,598 to the END project.

                                  See the General Comments section for a discussion of additional
                                  concerns we noted regarding portal-to-portal pay.




22
   “Agreement Between State of California and CDF Firefighters Covering Bargaining Unit 8 Firefighter,” Section 8.14.1
and 8.142.2, effective July 2, 2001 through June 30, 2006.
23
   Local 2881 of the International Association of Fire Fighters.
24
   The Governor declared a State of Emergency for the END outbreak under section 8625 on January 7, 2003.

 USDA/OIG-A/33099-10-SF                                                                                    Page 18
                  d.     Errors in Claiming Incident Command Assignment Pay

                         CDF claimed incorrect amounts for incident command assignment (ICA)
                         payments made to four employees. This occurred for various reasons, as
                         detailed below. CDF claimed $26,917 in ICA payments, which we
                         reviewed in full. We found that CDF underclaimed payments made to 3
                         employees by $22,885 and overclaimed payments made to 1 employee
                         by $1,701, resulting in a net underclaim of $21,184.

                         Some CDF employees assigned to the END project received ICA pay in
                         addition to their regular pay. ICA pay compensates certain employees,
                         who are not eligible for overtime pay, for additional hours worked on
                         extended assignments of 48 hours or longer. For the first two weeks,
                         ICA pay is equal to 1 week’s regular pay per week. For subsequent
                         weeks, it equals one-half week’s pay per week.

                         We reviewed ICA payments made to 6 employees, and found errors
                         relating to payments made to 4 employees. Details of the erroneous
                         payments are as follows:
                             • Employee D was paid $13,509 in ICA pay, but CDF only
                                 charged $4,503, resulting in an underclaim of $9,006. According
                                 to CDF, this likely occurred because documentation had not been
                                 timely received by the headquarters staff person who prepared
                                 the invoice to CDFA.
                             • Employee E was paid $9,152 in ICA pay, but CDF only charged
                                 $915, resulting in an underclaim of $8,237. According to CDF,
                                 this likely occurred because documentation had not been timely
                                 received by the headquarters staff person who prepared the
                                 invoice to CDFA.
                             • Employee F was paid $10,344, but should have only received
                                 $9,403. However, CDF only charged $3,761, resulting in an
                                 underclaim of $5,642. The overpayment occurred because CDF
                                 erroneously based the calculation of ICA pay on the hours
                                 worked per month instead of the hours worked per incident
                                 (which can overlap two months). The underclaimed amount is
                                 the difference between the amount claimed and the amount
                                 allowable.
                             • Employee G was paid $10,707, and CDF claimed this amount.
                                 However, we determined that the employee should have been
                                 paid $9,006, resulting in an overpayment and overclaim of
                                 $1,701. We could not determine the cause of the error because
                                 no records of the original calculation were available.


USDA/OIG-A/33099-10-SF                                                                Page 19
                         We also noted that Employee H was underpaid by $653, due to an
                         incorrect calculation of ICA pay by CDF. A pay differential, which
                         should have been included, was excluded from the employee’s base
                         salary when calculating the ICA payment. The employee was paid
                         $3,850, but was entitled to $4,503. Had the employee been paid the
                         correct amount, the additional amount would have been allowable.
                         However, because CDF claimed the actual amount paid, we have not
                         included the erroneous amount in our calculations.

                  e.     Employee Misclassified on Claim

                         CDF used incorrect rates to calculate the amounts it claimed for one
                         employee’s pay on its claims for reimbursement. This occurred because
                         a CDF employee entered the wrong job classification code on payroll
                         documents. As a result, CDF underclaimed $3,227.

                         When billing other agencies, such as CDFA, for CDF employees’ payroll
                         costs, CDF uses standard rates for each job classification rather than
                         tracking each individual employee’s actual salary and benefit costs.
                         CDF establishes hourly rates for each job classification annually by
                         tracking actual payroll costs for each employee in each job classification
                         for one month.

                         CDF misclassified the employee, a deputy chief, on 2 claims. The
                         employee was classified as a dispatcher-clerk on one billing and as an
                         assistant chief on another.       Because these were lower-paid job
                         classifications, an underclaim resulted.

                  In total, CDF overclaimed $126,040 and underclaimed $26,112, for a net
                  overclaim of $99,928.

Recommendation No. 3

                  Collect $99,928 from CDFA for costs claimed by CDF for overtime
                  payments to employees backfilling positions, ineligible payments made to
                  local fire departments, and portal-to-portal payments to ineligible CDF
                  employees.

                  Agency Response. In its written response to the draft report, dated
                  December 27, 2004, APHIS stated that it was in agreement with the finding
                  and would work with CDFA to collect the overpayment.

                  OIG Position. To reach management decision, APHIS should provide us a
                  copy of the bill for collection of the overpaid amounts, and documentation to



USDA/OIG-A/33099-10-SF                                                                   Page 20
                  support that the amounts have been entered as a receivable on APHIS’
                  accounting records.




USDA/OIG-A/33099-10-SF                                                       Page 21
 General Comment
                                 Use of California Department of Forestry and Fire Protection
                                 Personnel Resulted in Significantly Increased Project Costs

                                 The assignment of CDF employees to the END project resulted in
                                 significantly higher costs than would have been incurred if employees from
                                 other agencies had been used. The additional costs resulted from the
                                 payment of “portal-to-portal” pay to most of the assigned CDF employees.
                                 Portal-to-portal pay means the employees were paid for every hour they were
                                 assigned to the detail, including both duty and non-duty hours (i.e., 24 hours
                                 a day). All hours in excess of the employee’s normal workweek were paid at
                                 an overtime rate.

                                 Portal-to-portal payments were made to 142 of the 174 CDF employees
                                 assigned to the END project. As previously noted, the payments were
                                 required by terms of the bargaining agreement between CDF and the
                                 firefighters’ union.

                                 Due to the emergency, it was common for employees assigned to the END
                                 project from various agencies to work long hours with few, if any, days off.
                                 According to CDFA and APHIS officials, personnel generally worked 12 to
                                 14 hours a day. All employees were provided time off each evening to sleep
                                 at a hotel, and none were “on-call” during their non-duty hours. While
                                 employees of CDF and other agencies worked comparable hours, only CDF
                                 paid its employees for non-duty hours.

                                 We estimated that the portal-to-portal pay requirement resulted in additional
                                 costs of $877,026. We determined this figure by calculating, for each
                                 assigned CDF employee, the cost of all hours paid in excess of 16 per day,
                                 based on the assumption that each employee had at least 8 hours of non-duty
                                 time during each 24-hour period assigned.25 We noted that CDF employees
                                 assigned to END who were not eligible for the portal to portal pay and were
                                 paid based on actual hours worked, recorded an average of 14.3 hours a day
                                 of work time.

                                 We are not making any recommendations relating to the increased costs
                                 because (1) the portal-to-portal payments were required by the union
                                 contract, and (2) there were valid reasons for using CDF on the END project.
                                 At the time CDF was assigned in late 2002, a Federal emergency had not yet

25
     This is likely a low estimate of non-duty hours, based on the typical 12-14 hour day cited above.

 USDA/OIG-A/33099-10-SF                                                                                  Page 22
                            been declared and the State of California still had the primary responsibility
                            for the emergency response.26 OES directed CDF to participate in the
                            response under its authority to direct any State agency to participate in an
                            emergency response. CDF’s initial task was to establish the ICS. According
                            to an OES official, CDF was assigned because it was the agency most
                            capable of accomplishing the task, due to its extensive expertise in the ICS.
                            CDF also had sufficient personnel available to adequately implement the ICS.
                            OES’ general policy is to not request help from Federal agencies unless the
                            needed resources are unavailable from State agencies. In addition, OES has
                            no authority to mandate Federal agencies to participate in an emergency
                            response as it does with State agencies.

                            While CDF was a valuable resource and served a critical need in the END
                            project, other agencies are also capable of establishing and staffing an ICS.
                            ICS is a standardized system that was designed to allow personnel from
                            multiple agencies to work together as a unified team in an emergency
                            response and is used by many Federal, State, and local agencies.          For
                            example, USDA Forest Service officials told us that the Forest Service could
                            have handled the ICS responsibilities and would have been available to do so,
                            had they been asked to.

                            APHIS management should be aware of the significantly increased costs that
                            resulted from the use of CDF personnel. In the event of another emergency
                            in California, we would advise APHIS to consider whether less-costly
                            alternatives could be used; if not initially, then in later phases of the project.
                            We recommend that, in future emergencies, APHIS work closely with the
                            involved State agencies to evaluate the cost and viability of various
                            alternatives.




26
 On January 6, 2003, the Secretary of Agriculture issued a declaration of extraordinary emergency, and APHIS took a
more direct role in the emergency response.

 USDA/OIG-A/33099-10-SF                                                                                 Page 23
 Scope and Methodology
                                This audit was conducted to review Federal fiscal year 2003 expenditures by
                                CDFA under a cooperative agreement with APHIS. CDFA was selected for
                                review because its cooperative agreement represented 50 percent of the funds
                                awarded by APHIS under agreements with Federal, State, and local agencies.

                                The final form SF-270, “Request for Advance or Reimbursement,” submitted
                                by CDFA claimed a total of $26.7 million. It included transactions posted by
                                CDFA to its accounting system through December 2003 for services rendered
                                or goods ordered during Federal fiscal year 2003. Our scope included only
                                expenditures reported on this claim. The final form SF-270 is subject to
                                revision, if additional expenditures for Federal fiscal year 2003 are posted
                                after December 2003. Any such transactions are not included in our scope.

                                Our scope was $22.4 million of the $26.7 million claimed on the final form
                                SF-270. We excluded the remaining $4.3 million, representing indemnity
                                payments to bird owners, due to the unlikelihood that feasible
                                recommendations could be developed.

                                We performed our audit fieldwork from October 2003 through May 2004 at
                                APHIS’ headquarters offices in Washington, D.C, and Riverdale, Maryland;
                                APHIS’ area office and CDFA, CDF, and offices, all located in Sacramento,
                                California; UCD facilities in Davis, California; and a CAHFS laboratory
                                facility in San Bernardino, California.

                                This audit was performed in accordance with generally accepted government
                                auditing standards. To accomplish the audit objective,27 we performed the
                                following procedures:

                                 •    We obtained current information on amounts obligated and expended
                                      under cooperative agreements with State and local agencies.

                                •    We selected and reviewed the cooperative agreement with the CDFA and
                                     its subagreements with other State agencies.

                                •    We judgmentally selected various budget categories and reviewed
                                     documentation supporting costs charged by CDFA to the award,
                                     including costs charged by CCC, CDF, and UCD through subagreements
                                     or arrangements with CDFA.



27
     See Background and Objective section of this report.

 USDA/OIG-A/33099-10-SF                                                                           Page 24
                  •   We analyzed supporting documentation for individual expenditures
                      within the selected cost categories to determine if costs were reasonable,
                      allowable and adequately supported.

                  •   We interviewed APHIS, USDA Forest Service, CDFA, CCC, CDF, and
                      UCD officials to obtain information and to determine if expenditures
                      were allowable.




USDA/OIG-A/33099-10-SF                                                                Page 25
Exhibit A –         Summary of Monetary Results
                                                                                Exhibit A – Page 1 of 1



FINDING   RECOMMENDATION
                                       DESCRIPTION                AMOUNT         CATEGORY
NUMBER        NUMBER

                                                                              Funds To Be Put To
                                                                              Better Use:
                            Equipment without APHIS-asserted
   1            1                                                  $473,963   Management or
                            title.
                                                                              Operating
                                                                              Improvements/Savings

                            Unallowable or unsupported
                            expenditures by CDFA charged to the               Questioned Costs –
   2            2           USDA award.                            $128,404   Recovery
                            (see exhibit B for details)                       Recommended


                            Unallowable expenditures by CDF
                            billed to CDFA and charged to the                 Questioned Costs –
   3            9           USDA award.                             $99,928   Recovery
                            (see exhibit B for details)                       Recommended


TOTAL MONETARY RESULTS                                             $702,295




USDA/OIG-A/33099-10-SF                                                                     Page 26
  Exhibit B –                Details of Questioned Costs - Findings 2 and 3
                                                                               Exhibit B – Page 1 of 1



        FINDING                           DESCRIPTION                              AMOUNT

            2a          Stanislaus County Work Plan                                        $47,569

           2b           Unallowable Lease Payments                                         $32,287

            2c          Unallowable Vehicle Expenditures                                   $13,812

           2d           Inadequately Supported Cal-Card Purchases                          $13,241

            2e          Unsupported Payroll Expenditures                                   $11,564

            2f          Unallowable Training Expenses                                        $7,549

           2g           Unallowable Interest Penalty Payments                                $2,382

     Finding 2 Total                                                                      $128,404

            3a          Unallowable Backfill Expenses                                      $68,980

           3b           Unallowable Local Fire Department Payments                         $39,761

            3c          Portal-to-Portal Payments to Ineligible Employees                  $15,598

                        Erroneous Amounts Claimed for Incident Command
           3d           Assignment Pay ($22,885 underclaimed and $1,701                  ($21,184)
                        overclaimed)

                        Erroneous Amount Claimed due to Misclassification of
            3e                                                                             ($3,227)
                        Employee

     Finding 3 Total                                                                       $99,928

    Findings 2 and 3 Total                                                                $228,332




USDA/OIG-A/33099-10-SF                                                                                   Page 27
Exhibit C –       Agency Response to the Management Alert
                                                            Exhibit C– Page 1 of 1




USDA/OIG-A/33099-10-SF                                                Page 28
Exhibit D –       Agency Response to the Draft Audit Report
                                                              Exhibit D– Page 1 of 1




USDA/OIG-A/33099-10-SF                                                  Page 29
Informational copies of this report have been distributed to:

Government Accountability Office                                (2)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division                 (1)
